No. 20-5840

IN THE SUPREME COURT OF THE UNITED STATES

 

JAMES ROBERT MILLER,
PETITIONER,
vs.
UNITED STATES OF AMERICA,

RESPONDENT.

 

CERTIFICATE OF SERVICE
rete nennenrtnpesnnntnnennnsnsuin

As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of
this Court, I certify that the Reply Brief for Petitioner in Miller v. United
States, No. 20-5840, was served via electronic mail on all parties required:

Jeffrey B. Wall

Acting Solicitor General
Department of Justice

950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
supremectbriefs@doj.gov

I certify that the foregoing is true and correct. Executed on December 14,
2020, at Pasadena, California.

Lewiudser

Katherine Kimball Windsor

 
